                 The Tax Exempt and Government Entities
                  Division Ensures Reject Procedures Are
                    Current, but Increased Controls and
                  Analysis May Reduce Customer Burden

                                 September 2004

                       Reference Number: 2004-10-177




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                   DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                       September 27, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                 Gordon C. Milbourn III
                            Acting Deputy Inspector General for Audit

      SUBJECT:              Final Audit Report - The Tax Exempt and Government Entities
                            Division Ensures Reject Procedures Are Current, but Increased
                            Controls and Analysis May Reduce Customer Burden
                            (Audit # 200410006)

      This report presents the results of our review to determine whether the Tax Exempt and
      Government Entities (TE/GE) Division was providing the necessary oversight of the
      processing of the Ogden Submission Processing Site (OSPS) Reject Registers to
      ensure procedures and programs within the Rejects Unit are current and being followed.
      In addition, we determined whether there were opportunities for the TE/GE Division to
      reduce reject conditions and the associated burden on customers.
      The TE/GE Division is comprised of the Employee Plans (EP), Exempt Organizations
      (EO), and Government Entities functions. Many of the customers from these three
      functions are required to file information and/or tax returns. Small Business/
      Self-Employed (SB/SE) Division employees located at the OSPS process most of these
      returns for the TE/GE Division. In Calendar Year (CY) 2003, the OSPS processed more
      that 1.8 million TE/GE Division returns in addition to the numerous returns filed by
      businesses.
      Returns at the OSPS are routed through a series of processes, collectively known as
      “the pipeline,” that include perfecting return data through a series of validity and
      consistency checks and correcting errors that are made either by the customer during
      preparation or by the OSPS during processing. Returns that fail these computer checks
      are routed to the OSPS Error Resolution Department. Returns that cannot be corrected
      through the error resolution process are placed in a suspense status and forwarded to
      the Rejects Unit at the OSPS. During CY 2003, the Rejects Unit at the OSPS
      processed over 71,000 TE/GE Division returns that needed additional actions to post to
                                                        2

the Master File.1 For over 33,600 of these rejected TE/GE Division returns, the OSPS
sent nearly 51,000 pieces of correspondence to resolve the reject conditions.
The TE/GE Division Customer Account Services (CAS) function is responsible for
providing oversight of SB/SE Division processing activities. This includes providing
technical instruction and guidance to the OSPS technicians working TE/GE Division
returns, as well as monitoring the workload levels for TE/GE Division returns. The
oversight provided by TE/GE Division analysts is essential, due to the specialized
characteristics of TE/GE Division returns and because SB/SE Division analysts do not
provide this type of oversight for TE/GE Division returns
In summary, our review determined the TE/GE Division CAS function is providing the
necessary oversight to ensure OSPS personnel working TE/GE Division customer
returns with reject conditions have adequate training materials and the necessary
procedures to process and resolve the reject conditions. However, we determined the
TE/GE Division CAS function was not effectively monitoring aged cases and has not yet
evaluated the types of errors that are causing EP returns to be sent to the Rejects Unit.
This results in increased burden to TE/GE Division customers.
We recommended the Director, CAS, TE/GE Division, establish procedures to analyze
and document the reasons why EO returns with reject conditions requiring
correspondence take more than 120 days to resolve and establish procedures for the
SB/SE Division to review EO correspondence cases aged between 45 and 59 days to
ensure second correspondence is issued timely. We also recommended the Director,
CAS, TE/GE Division, conduct an annual review of EP return filing errors beginning in
Fiscal Year 2005 and the Director, EP, TE/GE Division, evaluate the three common
errors identified in our review to determine whether any of the errors should be
addressed by a redesign of the Return of Excise Taxes Related to Employee Benefit
Plans (Form 5330) or through education and outreach efforts.
Management’s Response: The Commissioner, TE/GE Division, agreed with the
findings and recommendations in the report. The Director, CAS, TE/GE Division, will
review and document the reasons why EO returns with reject conditions requiring
correspondence are not resolved in 120 days or fewer, coordinate with the SB/SE
Division to develop a unique TE/GE Division inventory and aged report that will increase
the ability to monitor overage and suspense cases, establish procedures to request that
SB/SE Division staff review correspondence cases aged between 45 and 59 days to
ensure second correspondence is issued timely, and perform an annual review of EP
return filing errors. The TE/GE Division Examination Redesign Study will recommend
the IRS Office of Chief Counsel revisit the Incomplete Return Items and the previous
General Counsel Memorandum to determine what items are considered critical enough
to warrant correspondence. The Director, EP, TE/GE Division, will include articles in
the summer edition of Retirement News for Employers and the fall edition of EP News
to remind filers of the most common errors occurring during the processing of

1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                          3

Forms 5330 and will initiate a review of the Form 5330 to determine what changes can
be made to improve its design, so filing errors can be minimized. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
    The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
      Current, but Increased Controls and Analysis May Reduce Customer Burden




                                                Table of Contents


Background ............................................................................................... Page 1
Customer Account Services Provides the Oversight Necessary
to Ensure Procedures for Processing Customer Returns With
Reject Conditions Are Current................................................................... Page 4
Increased Controls Over Exempt Organization Returns
Suspended for Correspondence Are Needed to Ensure
Timely Resolution...................................................................................... Page 6
         Recommendations 1 and 2: ...........................................................Page 8

Analyzing the Reasons for Filing Errors in Employee Plans
Customer Returns Could Reduce Reject Conditions................................. Page 9
         Recommendations 3 and 4: ...........................................................Page 10

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 16
    The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
      Current, but Increased Controls and Analysis May Reduce Customer Burden

                                The Internal Revenue Service (IRS) Tax Exempt and
Background
                                Government Entities (TE/GE) Division serves three distinct
                                customer segments with its Employee Plans (EP), Exempt
                                Organizations (EO), and Government Entities (GE)
                                functions. Many of the customers from each of these
                                functions are required to file information and/or tax returns.
                                Most of these returns1 are processed by Small Business/
                                Self-Employed (SB/SE) Division employees located at the
                                Ogden Submission Processing Site (OSPS). In Calendar
                                Year (CY) 2003, the OSPS processed more that 1.8 million
                                TE/GE Division returns in addition to the numerous returns
                                filed by businesses.
                                The goal of processing return information at the OSPS is to
                                post customer return information to each customer’s Master
                                File2 account. To accurately post to the Master File, returns
                                go through a series of processes. Collectively, these
                                processes are called “the pipeline;” they include perfecting
                                return data through a series of validity and consistency
                                checks and correcting errors that are made either by the
                                customer during preparation or by the OSPS during
                                processing.
                                The Internal Revenue Manual (IRM) outlines business rules,
                                administrative procedures, and guidelines used by the OSPS
                                to conduct business. These rules, guidelines, and
                                procedures assist managers and employees in administering
                                processing activities.
                                After returns are transcribed, return data must pass a series
                                of computer checks to provide IRS management with
                                reasonable assurance that the correct information is
                                forwarded to the Master File for posting. Returns or source
                                documents that fail any of these computer checks are routed
                                to the OSPS Error Resolution Department for further work.
                                The Error Resolution Department technicians compare the
                                related return to the error report and attempt to correct any
                                errors made by either the taxpayer or the OSPS processing.


                                1
                                  The Annual Return/Report of Employee Benefit Plan (Form 5500)
                                series is processed by a contractor for the Department of Labor.
                                2
                                  The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, employee
                                plans, and exempt organizations data.
                                                                                              Page 1
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                            Currently, the majority of TE/GE Division error cases are
                            processed using the Error Resolution System (ERS)
                            computer terminals. The remaining TE/GE Division error
                            cases are processed using the Service Center Replacement
                            System (SCRS) paper registers.
                            There are three types of general errors that cause a return to
                            be forwarded to the ERS or printed on an SCRS error
                            register:
                            •   Field Validity Error – includes missing information
                                from a required field or inconsistencies between data in
                                two different fields.
                            •   Section Validity Error – includes missing sections,
                                sections that are unnecessarily transcribed, and sections
                                that are formatted incorrectly (e.g., a nonnumeric
                                character in a numeric field).
                            •   Math Error – occurs when the computer’s computation
                                differs from the taxpayer’s entry or the transcribed
                                amount.
                            Returns or documents that cannot be corrected through the
                            error resolution process are placed in a suspense status and
                            forwarded to the Rejects Unit at the OSPS. Some of the
                            reasons for sending returns to the Rejects Unit may include:
                            •   Correspondence with the taxpayer is required to obtain
                                missing information, a schedule, or forms.
                            •   The return or document has been numbered incorrectly.
                                For example, a Return of Organization Exempt From
                                Income Tax (Form 990) cannot be processed using a
                                number reserved for a Return of Private Foundation or
                                Section 4947(a)(1) Nonexempt Charitable Trust Treated
                                as a Private Foundation (Form 990-PF).
                            •   The return requires additional research to determine the
                                correct entity, month of the fiscal year, or filing
                                requirements.
                            •   A previous IRS examiner was unable to make the proper
                                correction.
                            During CY 2003, the Rejects Unit at the OSPS processed
                            over 71,000 TE/GE Division returns that needed additional

                                                                                    Page 2
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                            actions to post to the Master File. For over 33,600 of these
                            rejected TE/GE Division returns, the OSPS sent nearly
                            51,000 pieces of correspondence to resolve the reject
                            conditions.
                                Table 1: Number of Rejects by Type of TE/GE Division Return
                                                         CY 20033
                                         Program                            Rejects
                                         Form 990                           25,883
                                       Form 990-EZ4                         18,234
                                                             5
                                Form 990-PF and Form 5227                   16,726
                                                             6
                                Form 990-C and Form 990-T                    3,176
                                 EO Function Miscellaneous                   2,485
                                 EP Function Miscellaneous
                                                                             4,684
                                       (Form 5330)7
                                           Total                            71,188
                            Source: IRS Program Analysis Report (PCC 6240).

                            The TE/GE Division Customer Account Services (CAS)
                            function is responsible for providing oversight of SB/SE
                            Division processing activities. This includes providing
                            technical instruction and guidance to the OSPS technicians
                            working TE/GE Division returns, as well as monitoring the
                            workload levels for TE/GE Division returns. The oversight
                            provided by TE/GE Division analysts is essential, due to the
                            specialized characteristics of TE/GE Division returns and
                            because SB/SE Division analysts do not provide this type of
                            oversight for TE/GE Division returns. As a result, TE/GE
                            Division CAS function analysts are responsible for keeping


                            3
                              This is not a complete list of TE/GE Division returns with reject
                            conditions processed at the OSPS because some forms are included in
                            other programs (e.g., U.S. Income Tax Returns for Certain Political
                            Organizations (Form 1120-POL) are included with other U.S.
                            Corporation Income Tax Returns (Form 1120)).
                            4
                              Short Form Return of Organization Exempt From Income Tax
                            (Form 990-EZ).
                            5
                              Split-Interest Trust Information Return (Form 5227).
                            6
                              Farmers’ Cooperative Association Income Tax Return (Form 990-C)
                            and Exempt Organization Business Income Tax Return (Form 990-T).
                            7
                              Return of Excise Taxes Related to Employee Benefit Plans
                            (Form 5330).
                                                                                         Page 3
      The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
        Current, but Increased Controls and Analysis May Reduce Customer Burden

                                   abreast of any changes to TE/GE Division returns and for
                                   alerting SB/SE Division analysts to the changes.
                                   This review was performed at the Ogden, Utah, TE/GE
                                   Division office and the Rejects Unit of the OSPS during the
                                   period January through May 2004. The audit was
                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objectives,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The TE/GE Division CAS function is providing the
Customer Account Services
                                   necessary oversight to ensure OSPS personnel working the
Provides the Oversight Necessary
                                   TE/GE Division customer returns with reject conditions
to Ensure Procedures for
                                   have adequate training materials and the necessary
Processing Customer Returns
                                   procedures to process and resolve the reject conditions.
With Reject Conditions Are
                                   While providing training materials and updating processing
Current
                                   procedures is a top priority for the TE/GE Division CAS
                                   function at the OSPS, this effort is primarily directed at the
                                   initial processing of returns and reject cases. We
                                   determined the TE/GE Division CAS function was not
                                   effectively monitoring aged cases and has not yet evaluated
                                   the types of errors that are causing EP reject returns. As a
                                   result, the burden on TE/GE Division customers is
                                   increased. We discuss these two issues in more detail later
                                   in the report.
                                   The TE/GE Division CAS function is responsible for the
                                   analysis and evaluation of programs associated with the
                                   processing of TE/GE Division returns in the OSPS. To
                                   accomplish effective program management, TE/GE
                                   Division CAS function analysts carry out the following
                                   necessary tasks related to TE/GE Division returns:
                                      •   Proposing IRM revisions and changes to manual or
                                          systemic processes.
                                      •   Advising OSPS personnel of new or revised
                                          program procedures or guidelines.
                                      •   Monitoring the progress of work performed at the
                                          OSPS to detect trends or problems.
                                      •   Preparing or assisting in the preparation of new or
                                          existing training materials.

                                                                                           Page 4
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                                   •   Reviewing legislative and program proposals to
                                       determine the overall impact on program areas and
                                       initiating the appropriate modifications.
                            SB/SE Division personnel at the OSPS handle the above
                            functions for the business returns and rely on TE/GE
                            Division analysts to initiate the actions for TE/GE Division
                            returns. The TE/GE Division CAS function annually
                            revises the IRM used by OSPS personnel working the
                            TE/GE Division returns with reject conditions. Legislative
                            or form changes may occur during the processing year8 or
                            after the annual IRM revision has been made. In these
                            instances or when the IRM does not contain procedures for
                            certain processing situations, TE/GE Division CAS function
                            analysts issue Information Alerts (IA) which supplement or
                            change the IRM procedures until the next revisions are
                            made. During the first quarter of CY 2004, TE/GE Division
                            CAS function analysts issued 62 IAs, including 19 related to
                            processing TE/GE Division returns with error or reject
                            conditions. For CY 2003, the analysts issued 145 IAs,
                            including 63 related to processing TE/GE Division returns
                            with error or reject conditions.
                            A Request for Information Services (RIS) is prepared
                            when changes to automated systems are needed for
                            processing TE/GE Division returns. The RIS report dated
                            October 2003 contained 9 requests submitted because of
                            legislative changes and 64 requests submitted by TE/GE
                            Division CAS function analysts for TE/GE Division returns
                            with reject conditions. TE/GE Division CAS function
                            analysts also reviewed the training materials developed for
                            OSPS Rejects Unit personnel and provided guidance to
                            course instructors.
                            Our analysis of the IRM, IAs, and RISs issued during the
                            period CY 2001 through March 2004 for the OSPS Rejects
                            Unit determined the procedures were timely updated and
                            reflected the latest legislative and form changes. TE/GE
                            Division CAS function analysts also followed the applicable
                            procedures for preparing and approving this guidance. As a
                            result, TE/GE Division CAS function analysts demonstrated
                            the necessary oversight to ensure the procedures and

                            8
                                The calendar year in which the return or record was processed.
                                                                                                 Page 5
      The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
        Current, but Increased Controls and Analysis May Reduce Customer Burden

                                  training materials used by SB/SE Division personnel
                                  working TE/GE Division returns with reject conditions were
                                  accurate and reflected the latest legislative and form
                                  changes.
                                  TE/GE Division CAS function analysts have not established
Increased Controls Over Exempt
                                  effective controls or procedures to monitor whether EO
Organization Returns Suspended
                                  returns suspended for correspondence were resolved within
for Correspondence Are Needed
                                  120 days or whether the second correspondence was issued
to Ensure Timely Resolution
                                  timely. A second correspondence is issued if the IRS has
                                  not received a reply to the first correspondence. This
                                  situation is unique for EO returns9 because the IRS does not
                                  generally send a second correspondence for other (EP or
                                  GE) returns.
                                  The IRM requires reject correspondence cases to be
                                  maintained for 45 calendar days or at least 10 days after the
                                  period provided for the taxpayer to respond. TE/GE
                                  Division reject correspondence generally gives the taxpayer
                                  30 days to respond. The IRM also requires a follow-up
                                  review of any correspondence returns over 60 days old in
                                  the Rejects Unit and gives a final deadline of 120 days to
                                  resolve all records in the Rejects Unit.
                                  While the ERS and the SCRS cases forwarded to the Rejects
                                  Unit appear on an aged listing at 45 days, IRM procedures
                                  do not require employees in the Rejects Unit to monitor or
                                  take any actions to resolve cases that are aged for 45 to
                                  59 days. Our review of aged reports was limited to the ERS
                                  because the OSPS is not required to maintain SCRS reports
                                  after they are worked.
                                  The OSPS ERS Unworkable Suspense Aged Reports for
                                  CY 2003 showed that approximately 30 percent (20,176 of
                                  67,611) of the total business and TE/GE Division returns
                                  open in the Rejects Unit for at least 45 days and suspended
                                  for correspondence were EO returns. In addition, 92 percent
                                  (285 of 310) of the suspended returns that were not resolved
                                  within 120 days were EO returns. The disproportionate


                                  9
                                    In 1984, the IRS implemented an Incomplete Returns Program for
                                  certain EO returns to increase assurances that information required by
                                  law was being provided. This Program requires that second
                                  correspondence be sent if an incomplete return item is not secured with
                                  the first correspondence.
                                                                                                  Page 6
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                            share of EO returns that were open over 120 days indicates
                            that systemic or procedural problems requiring action by
                            TE/GE Division CAS function analysts may exist. TE/GE
                            Division CAS function analysts should review some of the
                            cases to determine the causes of the delays in closing the
                            cases.
                            An analyst for the TE/GE Division CAS function advised us
                            there are very few SCRS cases that meet the 120-day
                            criteria and, generally, they are aged because the document
                            cannot be located and needs to be renumbered or reinput.
                            We acknowledge that it is difficult for TE/GE Division
                            management to monitor the weekly aged case listing
                            because the listing does not break out TE/GE Division
                            returns separately from the business returns. On average,
                            TE/GE Division returns make up approximately 32 percent
                            of the returns included on the listing.
                            We analyzed the ERS aged case listings for the period
                            January 3 through December 24, 2003, and determined that
                            85 percent (243 of 285) of these returns were suspended for
                            correspondence for the entire time (indicating that they were
                            locatable) and 48 percent (136 of 285) were listed on 2 or
                            more reports after reaching 120 days (indicating that SB/SE
                            Division examiners were not meeting the IRM time standard
                            to close all Rejects Unit cases within 120 days). TE/GE
                            Division analysts have not established specific procedures to
                            follow up with the SB/SE Division on EO returns that are
                            suspended for correspondence and remain unresolved for
                            120 days. Establishing procedures to analyze and document
                            these cases may identify systemic or procedural problems
                            that are causing the delays, which increase TE/GE Division
                            customers’ burden.
                            In addition, for EO returns requiring a second
                            correspondence, we determined that, in 80 percent (37 of
                            46) of our judgmental sample, the second correspondence
                            was not issued within 45 days. The average number of days
                            from the first correspondence to the second correspondence
                            was 57 days for the 46 cases. In 15 instances, the second
                            correspondence was issued more than 70 days after the
                            initial correspondence.
                            Because ERS reject cases suspended for correspondence are
                            not followed up on until after 60 days, there is a risk that the
                                                                                     Page 7
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                            second correspondence will not be issued in 45 days as
                            required by the IRM. Also, because the ERS Unworkable
                            Suspense Aged Report does not distinguish between first
                            and second correspondence, the ability of TE/GE Division
                            CAS function analysts to monitor these cases for timeliness
                            of actions is significantly reduced. Improved monitoring
                            controls would enable TE/GE Division CAS function
                            analysts to provide the necessary oversight on the timeliness
                            of actions within the OSPS Rejects Unit for EO returns that
                            are suspended for correspondence. Also, improved controls
                            would reduce customer burden since some customer account
                            information is not available until the reject is resolved and
                            the return is posted to its respective Master File.

                            Recommendations

                            1. The Director, CAS, TE/GE Division, should establish
                               procedures to analyze and document the reasons EO
                               returns with reject conditions requiring correspondence
                               take more than 120 days to resolve.
                            Management’s Response: The Director, CAS, TE/GE
                            Division, will review, analyze, and document the reasons
                            why EO returns with reject conditions requiring
                            correspondence are not resolved in 120 days or fewer. The
                            TE/GE Division Examination Redesign Study will
                            recommend the IRS Office of Chief Counsel revisit the
                            Incomplete Return Items and the previous General Counsel
                            Memorandum to determine what items are considered
                            critical enough to warrant correspondence.
                            2. The Director, CAS, TE/GE Division, should establish
                               procedures for the SB/SE Division to review EO
                               correspondence cases aged between 45 and 59 days to
                               ensure second correspondence is issued timely.
                            Management’s Response: The Director, CAS, TE/GE
                            Division, will coordinate with the SB/SE Division to
                            develop a unique TE/GE Division inventory and aged report
                            which will increase the ability to monitor overage and
                            suspense cases and will establish procedures to request that
                            SB/SE Division staff review correspondence cases aged
                            between 45 and 59 days to ensure second correspondence is
                            issued timely.
                                                                                  Page 8
      The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
        Current, but Increased Controls and Analysis May Reduce Customer Burden

                                   We identified an opportunity for the TE/GE Division to
Analyzing the Reasons for Filing
                                   reduce taxpayer burden by identifying common filing errors
Errors in Employee Plans
                                   for EP returns and addressing them in education and
Customer Returns Could Reduce
                                   outreach efforts. This type of review is currently being done
Reject Conditions
                                   on an annual basis for EO returns. The results from these
                                   reviews are used by the EO Customer Education and
                                   Outreach function to develop filing tips that are published
                                   on the IRS.gov web site, in tax forum sessions on
                                   completing Form 990, and in instructions for completing
                                   Form 990 returns. This information helps EO customers
                                   better understand how to correctly prepare EO returns and
                                   should lead to reduced errors and reject conditions.
                                   However, similar reviews are not performed for EP returns
                                   processed at the OSPS.
                                   From our judgmental sample of Forms 5330 suspended for
                                   correspondence, we identified 3 areas that accounted for
                                   90 percent (18 of 20 cases) of the errors:
                                      •   Ten filing errors were the result of the relationship
                                          between Parts VII and IX of the Form 5330, which
                                          may be confusing to some filers.
                                      •   Five filing errors occurred because the Forms 5330
                                          were not signed.
                                      •   Three filing errors were from line 26 of Form 5330,
                                          which requests information on prohibited
                                          transactions.
                                   An integral part of the TE/GE Division mission is to help
                                   customers understand and comply with applicable tax laws.
                                   Analyzing the types of filing errors for EP returns could
                                   identify areas where customers are having difficulties
                                   understanding and complying with the tax laws. TE/GE
                                   Division management could then develop methods to
                                   increase awareness, thereby reducing the number of EP
                                   returns with reject conditions.
                                   TE/GE Division management advised us that they currently
                                   do not conduct such a review of EP returns due to
                                   processing changes and corrections that required the
                                   attention of the TE/GE Division CAS function analysts.
                                   However, if resources are available during Fiscal Year
                                   (FY) 2005, they plan to implement a review of EP return
                                   filing errors. While this review must be done manually by
                                                                                          Page 9
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                            reviewing current cases suspended in the Rejects Unit (the
                            types of errors are not tracked on the ERS reports), we
                            believe implementing such a review would require only a
                            limited amount of resources because the number of EP
                            reject cases is relatively small. For example, for the
                            2003 processing year, there were almost 4,700 EP reject
                            cases versus approximately 71,000 total TE/GE Division
                            reject cases. In addition, only 607 of the EP reject cases
                            required correspondence. If trends are identified in the
                            types of filing errors and included in future education and
                            outreach activities, it could result in a reduction in the
                            resources needed for correcting filing errors in the future,
                            which may offset the resources used in conducting the
                            review. Moreover, fewer filing errors would reduce the
                            burden on EP customers.

                            Recommendations

                            3. The Director, CAS, TE/GE Division, should conduct an
                               annual review of EP return filing errors beginning in
                               FY 2005, even if the reviews are limited due to the
                               resources available.
                            Management’s Response: The Director, CAS, TE/GE
                            Division, will perform an annual review of EP return filing
                            errors and submit a report to the Director, EP, TE/GE
                            Division.
                            4. The Director, EP, TE/GE Division, should evaluate the
                               three common errors identified in our review to
                               determine whether any of the errors should be addressed
                               by a redesign of the Form 5330 or through education
                               and outreach efforts.
                            Management’s Response: The Director, EP, TE/GE
                            Division, will include articles in the summer edition of
                            Retirement News for Employers and the fall edition of
                            EP News to remind filers of the most common errors
                            occurring during the processing of Forms 5330 and will
                            initiate a review of the Form 5330 to determine what
                            changes can be made to improve its design, so filing errors
                            can be minimized.



                                                                                  Page 10
      The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
        Current, but Increased Controls and Analysis May Reduce Customer Burden

                                                                                                  Appendix I


                         Detailed Objectives, Scope, and Methodology

The objectives of this audit were to determine whether the Tax Exempt and Government Entities
(TE/GE) Division was providing the necessary oversight of the processing of the Ogden
Submission Processing Site (OSPS) Reject Registers to ensure procedures and programs within
the Rejects Unit are current and being followed. In addition, we determined whether there were
opportunities for the TE/GE Division to reduce reject conditions and the associated burden on
customers. To achieve these objectives, we:
    I. Determined whether the TE/GE Division Customer Account Services function was
       providing the necessary oversight to ensure Small Business/Self-Employed Division
       employees working TE/GE Division returns in the Rejects Unit have accurate procedures
       and training materials and the procedures reflect the latest legislative and form changes.
              A. Interviewed TE/GE Division analysts and reviewed applicable documents to
                 determine whether policy and procedures were established to ensure procedures,
                 programs, and training materials within the Rejects Unit were current and
                 reflected the latest legislative and form changes.
              B. Interviewed OSPS Rejects Unit personnel working TE/GE Division returns and
                 reviewed applicable documents to determine whether procedures, programs, and
                 training materials were current and reflected the latest legislative and form
                 changes.
              C. Reviewed Requests for Information Services1 to determine whether changes to
                 procedures were submitted to reflect the latest legislative and form changes.
    II. Determined whether the TE/GE Division implemented effective controls to monitor the
        processing of reject conditions in the Rejects Unit and initiated changes that will correct
        processing problems.
              A. Determined the number of rejects, the correspondence volume, and the number of
                 replies to correspondence for processing year2 2003 TE/GE Division returns.
              B. Reviewed monthly operational reports prepared by TE/GE Division analysts to
                 determine whether reject rates were tracked, processing concerns were identified,
                 and actions were taken to resolve issues associated with reject returns.
              C. Reviewed the weekly aged listing of reject inventories to determine whether
                 inventory levels were manageable as defined by the Internal Revenue Manual.

1
  A Request for Information Services is prepared when changes to automated systems are needed for processing
TE/GE Division returns.
2
  The calendar year in which the return or record was processed.
                                                                                                        Page 11
     The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
       Current, but Increased Controls and Analysis May Reduce Customer Burden

             D. Reviewed a judgmental sample3 of TE/GE Division returns forwarded to the
                OSPS Rejects Unit and assessed the reason for the reject condition and whether
                the reject condition was adequately and timely resolved.
III. Determined whether the TE/GE Division established policies and procedures to analyze the
     causes of errors and implemented actions to reduce future errors and the burden on
     customers.
             A. Interviewed TE/GE Division analysts and reviewed applicable documentation to
                determine whether policies and procedures have been established to analyze the
                causes of errors and implement actions to reduce future errors and the burden on
                customers.
             B. Interviewed TE/GE Division Customer Education and Outreach function staffs
                and reviewed applicable documentation to determine what actions have been
                implemented to reduce errors.
             C. Determined whether any of the reasons for reject conditions on TE/GE Division
                returns identified in the judgmental sample taken in Step II.D. could be addressed
                by TE/GE Division management to prevent or reduce the number of reject cases.




3
  A judgmental sample of TE/GE Division rejected returns that required correspondence was used because the
population could not be determined. Some of the TE/GE Division rejected returns are processed using paper
registers that are not maintained by the OSPS Rejects Unit. The sample of 100 TE/GE Division rejected returns was
selected on February 3 and 4, 2004, from the OSPS Rejects Unit Correspondence Suspense File. The sample
included 80 Exempt Organizations (EO) returns, which consisted of 46 EO returns that required second
correspondence and 34 EO returns that did not require second correspondence, and 20 Employee Plans (EP) returns
[Return of Excise Taxes Related to Employee Benefit Plans (Forms 5330)]. Second correspondence is not sent for
EP returns.




                                                                                                        Page 12
    The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
      Current, but Increased Controls and Analysis May Reduce Customer Burden

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
Gregory W. Holdeman, Lead Auditor
Marcus Sloan, Auditor




                                                                                      Page 13
    The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
      Current, but Increased Controls and Analysis May Reduce Customer Burden

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Customer Account Services, Tax Exempt and Government Entities Division
SE:T:CAS
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 14
    The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
      Current, but Increased Controls and Analysis May Reduce Customer Burden

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 13 Employee Plans returns with reject conditions (see page 9).
Methodology Used to Measure the Reported Benefit:
An integral part of the Tax Exempt and Government Entities (TE/GE) Division mission is to
help customers understand and comply with applicable tax laws. In our limited judgmental
sample of 20 Return of Excise Taxes Related to Employee Benefit Plans (Form 5330) in the
Rejects Unit on February 4, 2004, we identified 10 filing errors that were the result of the
relationship between Parts VII and IX of the Form 5330, which may be confusing to some filers.
In addition, three filing errors were from line 26 of Form 5330, which requests information on
prohibited transactions.
By addressing these two types of filing errors through a redesign of the Form 5330 or education
and outreach efforts, the TE/GE Division may be able to reduce the number of Employee Plans
returns with reject conditions, thus reducing the burden on customers who file a Form 5330.




                                                                                          Page 15
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden

                                                                    Appendix V


                Management’s Response to the Draft Report




                                                                          Page 16
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden




                                                                          Page 17
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden




                                                                          Page 18
The Tax Exempt and Government Entities Division Ensures Reject Procedures Are
  Current, but Increased Controls and Analysis May Reduce Customer Burden




                                                                          Page 19
